               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Efficiency Review of the Los Angeles
        Network Distribution Center

                       Audit Report




                                              August 3, 2012

Report Number NO-AR-12-007
                                                                         August 3, 2012

                                               Efficiency Review of the Los Angeles
                                                        Network Distribution Center

                                                        Report Number NO-AR-12-007



BACKGROUND:
This report presents the results of our      of mail handled daily. This could
audit of the Los Angeles Network             adversely impact service and result in
Distribution Center (NDC) located in the     about $500,000 in revenue at risk
Los Angeles District of the Pacific Area.    annually.
The U.S. Postal Service faces
significant financial challenges. It         WHAT THE OIG RECOMMENDED:
concluded fiscal year 2011 with a net        We recommended the vice president,
loss of almost $5.1 billion, despite         Pacific Area Operations, instruct Los
reducing operating expenses by               Angeles NDC management to reduce
$4.8 billion. To maximize efficiency, the    workhours to produce an annual cost
goal is to process mail with the least       avoidance of $6.5 million, or increase
amount of resources and still meet           volume by 39 million pieces, or a
service timeframes.                          combination of both. We also
                                             recommended periodic evaluation of
Our objective was to determine the           operating efficiency and staffing at the Los
efficiency of operations at the Los          Angeles NDC to determine whether further
Angeles NDC. We performed this audit         workhour adjustments are necessary.
based on a comparison of all NDCs’           Additionally, we recommended improving
productivity.                                supervision of employees and maintenance
                                             of mail processing equipment, maximizing
WHAT THE OIG FOUND:                          automation, and ensuring there is
While the Los Angeles NDC made               separation of non-machineable and
progress in reducing workhours over the      machineable parcels throughout the
past several years, further opportunities    processing network.
exist for improvement. Specifically, the
Los Angeles NDC did not attain the           Link to review the entire report
average productivity of all NDCs above
the median productivity or take full
advantage of existing automation.
Consequently, the Los Angeles NDC
used 200,019 more workhours than
necessary. If the Postal Service
eliminated these workhours, there would
be an annual avoidance of about
$6.5 million in labor costs. Additionally,
the Los Angeles NDC damaged a daily
average of 3,700 of the 175,000 pieces
August 3, 2012

MEMORANDUM FOR:            DREW ALIPERTO
                           VICE PRESIDENT, PACIFIC AREA OPERATIONS




                           for
FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Efficiency Review of the Los Angeles
                           Network Distribution Center
                           (Report Number NO-AR-12-007)

This report presents the results of our audit of the efficiency of the Los Angeles Network
Distribution Center (Project Number 12XG010NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: David E. Williams, Jr.
    Frank Neri
    Clark E. Riley
    Corporate Audit and Response Management
Efficiency Review of the Los Angeles                                                                               NO-AR-12-007
 Network Distribution Center



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Comparison to Other Network Distribution Centers ........................................................ 3

Potential Sources of Workhour Reduction....................................................................... 4

Employee Complement ................................................................................................. 13

Maintenance.................................................................................................................. 14

Mail Damage ................................................................................................................. 16

Causes and Impacts on Operations .............................................................................. 16

Recommendations ........................................................................................................ 17

Management’s Comments ............................................................................................ 18

Evaluation of Management’s Comments ....................................................................... 18

Appendix A: Additional Information ............................................................................... 19

   Background ............................................................................................................... 19

   Objective, Scope, and Methodology .......................................................................... 20

   Prior Audit Coverage ................................................................................................. 21

Appendix B: Los Angeles Network Distribution Center Suggestions for Improving
     Efficiency ............................................................................................................ 24

Appendix C: Monetary and Other Impacts .................................................................... 25

Appendix D: Management’s Comments ........................................................................ 26
Efficiency Review of the Los Angeles                                                                      NO-AR-12-007
 Network Distribution Center




Introduction

This report presents the results of our audit of the efficiency of the Los Angeles Network
Distribution Center (NDC) (Project Number 12XG0010NO000). Please see Figure1 for a
picture of the facility that we audited. Our objective was to determine the efficiency of
operations at the Los Angeles NDC. The self-initiated audit addresses operational risk. See
Appendix A for additional information about this audit.

The U.S. Postal Service faces significant financial challenges. It concluded fiscal year
(FY) 2011 with a net loss of almost $5.1 billion, despite reducing operating expenses by
$4.8 billion. In FY 2011, the loss from operations was just over $4.9 billion. The net loss
would have been $10.6 billion had it not been for an extension of a provision allowing the
Postal Service to defer certain benefit payments.1 Streamlining the processing network is
key to reducing operating costs. Currently, there are 21 NDCs nationwide. NDCs are
categorized as Tier 1, Tier 2, or Tier 3, depending on what operations their employees
perform. All 21 NDCs are Tier 1. Tier 2 and Tier 3 NDCs act as transfer and consolidation
points to other NDCs. The Los Angeles NDC is both a Tier 1 and 2 facility (see Table 12) in
the Pacific Area. The Los Angeles NDC processes inbound and outbound mail for
processing and distribution centers in the Los Angeles area, as well as mail to and from the
San Francisco NDC. In FY 2011, the Los Angeles NDC processed 63.6 million first-handled
pieces (FHP2) of mail, an increase of 14 percent from the FY 2010 volume of 55.7 million
pieces. Also in FY 2011, the on-rolls complement was 726 employees, compared to
736 employees in FY 2010.




1
  Congressional legislation was passed postponing a congressionally mandated payment of $5.5 billion to pre-fund retiree
health benefits.
2
  A letter, flat, or parcel that receives its initial distribution at a Postal Service facility. FHP records mail volume in the
operation where it receives its first distribution handling.
                                                                       1
Efficiency Review of the Los Angeles                                                            NO-AR-12-007
 Network Distribution Center


                                   Figure 1. The Los Angeles NDC




                   Source: U. S. Postal Service Office of Inspector General (OIG) photograph,
                   February 11, 2012.

We performed this audit based on a comparison of NDCs’ productivity. We identified the
Los Angeles NDC as having the potential for significant savings through improved
efficiency. To maximize efficiency, the goal is to process mail with the least amount of
resources and still meet service timeframes.

Conclusion

While the Los Angeles NDC made significant progress in reducing workhours over the past
several years, further opportunities exist for improvement. Specifically, the Los Angeles
NDC did not attain the average productivity of all NDCs above the median productivity or
take full advantage of existing automation. Consequently, the Los Angeles NDC used
200,019 more workhours than necessary, thus missing an annual cost avoidance of about
$6.5 million based on mail volume.

These conditions occurred because Los Angeles NDC management did not fully evaluate
operational efficiency by benchmarking operations against other NDCs, analyze workhour
trends, or always properly supervise employees. In addition, the Los Angeles NDC did not
conduct all preventive maintenance routes and maximize the use of automated equipment
through installation of a High-Speed Universal Sorter. Consequently, the Los Angeles NDC
was using more workhours than necessary to process its mail volume.

To increase productivity to the average productivity of all NDCs above the median
productivity, Los Angeles NDC management needs to:

   Reduce workhours by 200,019, which would produce a cost avoidance of about
    $6.5 million annually (see Appendix C for details).



                                                        2
Efficiency Review of the Los Angeles                                                                  NO-AR-12-007
 Network Distribution Center


                 Continue to increase mail volume by 39 million pieces.

                 Combine workhour reductions and mail volumes increases.

Additionally, the Los Angeles NDC damages an average of over 3,700 of the 175,000
pieces of mail handled daily. Comingling of oversized packages by other facilities —
combined with a lack of proper maintenance — is the primary reason for the damage. This
could adversely impact service and result in about $500,000 in annual revenue at risk.

Comparison to Other Network Distribution Centers

The Los Angeles NDC’s total pieces handled (TPH) and non-add3 (NA) productivity ranks
18 of 21 NDCs, as shown in Figure 2. Comparing the Los Angeles NDC to other NDCs
provides a benchmark for operational efficiency. Productivity for the Los Angeles NDC
decreased while national averages increased during the period FY 2009 to FY 2011 (see
Table 1). Variations in operations performed at the different NDCs require a review of the
specific labor distribution codes (LDCs).4 Raising the Los Angeles NDC’s productivity for
these comparable operations to above-median levels would require reduction of 200,019
workhours at existing FHP levels.

                                Figure 2: NDC TPH and NA Productivity for FY 2011
Pieces per Hour




                                             Network Distribution Centers
Source: Enterprise Data Warehouse (EDW).


3
  The TPH count in non-distribution operations is recorded as TPH, but not added to the bottom line for mail processing
distribution — thus, the name “non-add total pieces handled.”
4
  The Postal Service compiles workhour, labor use, and other financial reports for management’s use by functional
category or LDC.


                                                            3
Efficiency Review of the Los Angeles                                                                     NO-AR-12-007
 Network Distribution Center



                                     Table 1: Productivity Comparison

                                                            Median NDC                 Los Angeles NDC
                           FY 2009                            104 PPH*                        92 PPH
                           FY 2010                             103 PPH                        91 PPH
                        FY 2011                                117 PPH                        86 PPH
                   Percentage Increase
                                                                  12.5%                        -6.5%
                    FYs 2009—2011
            Source: EDW; *Pieces Per Hour (PPH).

Both national NDCs’ and the Los Angeles NDC’s handling ratios have shown similar
improvements, decreasing from 1.46 times handled to about 1.20 times handled. The
handling ratio is the number of times each mailpiece is handled.5 Generally, the lower the
handling ratio, the more efficient the plant. Decreasing the handling ratio helps improve
operational efficiency.

Potential Sources of Workhour Reduction

We identified specific mail processing functions where the Los Angeles NDC could improve
efficiency. Table 2 shows a complete breakdown of potential workhour savings by LDC. We
calculated the potential workhour savings by raising Los Angeles NDC productivity to the
average productivity of all NDCs above the median productivity. We calculated LDC 17 and
18 productivity as a percentage of total workhours, as they are ancillary functions, but
calculated LDC 13 and 14 productivity as PPH, since mail volume is directly involved. We
did not list LDC’s where the Los Angeles NDC productivity exceeded the productivity of
other NDCs above the median. Several NDCs also have operations not found at the
LA NDC.

                          Table 2: Summary of Potential Workhour Savings

                    LDC6                                                Potential Workhour Savings
    LDC 13 – Parcel Distribution                                                      45,852
    LDC 14 – Manual Distribution                                                      92,482
    LDC 17 – Allied Operations                                                        47,801
    LDC 18 – Miscellaneous Operations                                                 13,884
    Total                                                                            200,019
    Source: EDW.


5
  Handling ratio is calculated by dividing TPH by FHP.
6
  The Postal Service uses LDC 13 to record parcel distribution operations and LDC 14 to record manual sortation of
letters and flats. LDC 17 records hours in allied operations or mail processing operations other than distribution including
mail preparation, presort operations, opening, pouching, and platform operations. LDC 18 records indirect/related
workhours including stand-by time, empty equipment processing, office work, and several other activities.


                                                              4
Efficiency Review of the Los Angeles                                                                   NO-AR-12-007
 Network Distribution Center


    LDC 13 — Parcel Distribution

The Los Angeles NDC can improve the efficiency of parcel distribution. Above median
NDCs processed, on average, 289 PPH during FY 2011, while the Los Angeles NDC
processed 254 PPH. Increasing the Los Angeles NDC to the average of the above median
NDCs could save 45,852 workhours annually (see Table 3).

                Table 3: LDC 13 Parcel Distribution Potential Workhour Savings

                                                           Above Median Plants              Los Angeles NDC
       LDC 13 Volume                                          709,191,400                      94,964,705
       LDC 13 Workhours                                            2,454,055                      374,464
       LDC 13 Productivity                                         289 PPH                        254 PPH
       FY 2011 Los Angeles LDC13
                                                                                  374,464
       Workhours
       Los Angeles NDC Target
                                                                                  328,612
       Workhours*
       Potential Workhour Savings                                                 (45,852)
       Source: EDW *Target workhours are the number of workhours necessary to raise Los Angeles NDC productivity
       to the average of the above median NDCs.

Table 4 shows selected operations where the Postal Service can improve productivity. For
example, above-median NDCs processed 510 pieces of outgoing mail per hour on the
Automated Parcel Bundle Sorter (APBS)7 while the Los Angeles NDC only processed
412 pieces per hour. Observations at the Los Angeles NDC revealed idle employees on
both the high-speed tray sorter and the APBS (see Figures 3 and 4).

                                   Table 4: Selected LDC 13 Operations

Operation                                                                 Above-Median
 Number                    Operation Description                             NDCs      Los Angeles
      101       Mechanized Parcel Sorting — Secondary                         349 PPH                125 PPH
      105       Mechanized Parcel Sorter                                      287 PPH                193 PPH
                Automated Parcel Bundle Sorter —
      135       Outgoing Standard                                             510 PPH                412 PPH
      198       High-Speed Tray Sorter — Outgoing                             168 PPH                126 PPH
      199       High-Speed Tray Sorter — Incoming                              96 PPH                43 PPH
      238       Mechanized Sort — Sack/Outside                                170 PPH                118 PPH
7
 The Postal Service uses the APBS to process bundles of flats or letters, Priority Mail® parcels, and Parcel Post. On the
APBS machines, all but one of the six induction stations have been modified so that mailpieces can be inducted with no
keying required. The operators simply face and place mailpieces on the belt for subsequent reading by the bar code
reader. The technology to automate address reading significantly increases throughput and productivity.


                                                            5
Efficiency Review of the Los Angeles                                                                    NO-AR-12-007
 Network Distribution Center



Operation                                                                  Above-Median
 Number                  Operation Description                                NDCs      Los Angeles
                Singulation Scan Induction Unit —
    854         Destinating Package Services                                    315 PPH               247 PPH
    856          High-Speed Induction Unit — Outgoing                           556 PPH               389 PPH
                            Package Services
Source: EDW.

                                      Figure 3: High-Speed Tray Sorter




                Source: OIG photograph, February 15, 2012, 10:10 p.m. While this high-speed tray sorter had two
                                                                                                                 8
                employees loading mail and three or more on each side, the majority of trays went to one run-out, leaving
                other employees idle. The picture shows that none of the run-outs are full.




8
  A run-out is one separation on the sorter. Each run-out is designated a particular destination, based on the sort plan
running at the time.


                                                             6
Efficiency Review of the Los Angeles                                                                 NO-AR-12-007
 Network Distribution Center


                             Figure 4: Automated Parcel Bundle Sorter




              Source: OIG photograph, February 15, 2012, 10:27 p.m. There is no mail on the APBS;
              therefore, four clerks sit idle. Even though it is an APBS and capable of reading barcodes,
              employees still key every mailpiece. Management stated the machine does not have the
              proper software for all the necessary mail sorts/separations.

LDC 14 — Manual Distribution

The Los Angeles NDC has the greatest opportunity to save workhours through improved
efficiency of manual distribution. Above median NDCs process, on average, 173 PPH,
while the Los Angeles NDC processes 68 PPH. Increasing the Los Angeles NDC to the
average of the above median NDCs could save 92,482 workhours annually (see Table 5).

           Table 5: LDC 14 — Manual Distribution Potential Workhour Savings

                                                          Above Median NDCs                Los Angeles NDC
   LDC 14 Volume                                              38,382,740                      10,358,990
   LDC 14 Workhours                                                221,229                        152,183
   LDC 14 Productivity                                                173                             68
   FY 2011 Los Angeles NDC, LDC 14
                                                                                 152,183
   Workhours
   Los Angeles NDC Target Workhours*                                              59,701
   Potential Workhour Savings                                                    (92,482)
   Source: EDW.

For example, in one manual operation, the Los Angeles NDC productivity for operation 100,
Manual Parcels – Outgoing, was 68 PPH, while the above median NDC average was
84 PPH. Observations revealed overstaffed operations and idle employees using



                                                           7
Efficiency Review of the Los Angeles                                                                     NO-AR-12-007
 Network Distribution Center


antiquated sorting methods (see Figure 5). Installation of the High-Speed Universal Sorter9,
approved in a July 2010 Decision Analysis Report, could substantially reduce manual
processing hours.

           Figure 5: Non-Machineable Other Operations at the Los Angeles NDC




               Source: OIG photograph, February 11, 2012, 5:42 p.m. One or two employees load parcels
               on the belt. When the parcels arrive at the center, several mail handlers move the parcels to
               the correct leg, then into the correct container. In this instance, the two mail handlers loading mail
               temporarily relocated elsewhere, leaving eight mail handlers idle.

LDC 17 — Allied Operations

Allied operations provide another opportunity for the Los Angeles NDC to reduce
workhours. LDC 17 (or allied operations) includes mail preparation, including presort,
opening, pouching, and platform operations. During FY 2011, the Los Angeles NDC used
over 50 percent of its processing workhours on LDC 17, while the above-median average
NDCs, on average, used just over 46 percent of their workhours on allied labor. Reducing
LDC 17 workhours by 47,801 would enable the Los Angeles NDC to raise productivity to
the average of the above median NDCs (see Table 6). Also, Table 7 provides information
on specific allied operations within LDC 17 with the greatest opportunity for savings.




9
 The High-Speed Universal Sorter will automate sortation of many manual parcels, thereby saving a projected
21,150 hours annually.


                                                             8
Efficiency Review of the Los Angeles                                                      NO-AR-12-007
 Network Distribution Center


            Table 6: LDC 17 — Allied Operations Potential Workhour Savings

                                                        Above Median NDCs        Los Angeles NDC
    LDC 17 Workhours                                           4,157,928                646,354
    Total Workhours                                            8,969,578               1,291,213
    LDC 17 Percentage to Total Workhours                        46.36%                  50.06%
    FY 2011 Los Angeles NDC LDC17
                                                                           646,354
    Workhours
    Los Angeles NDC Target Workhours*                                      598,553
    Potential Workhour Savings                                             (47,801)
  Source: EDW.

                    Table 7: LDC 17 — Productivities for Allied Operations

       Operation                    Operation                     Above Median        Los Angeles
        Number                     Description                        NDCs               NDC
          210                  Platform — Inbound                    12.36%             22.62%
           230           Equipment Operator — Forklift                15.73%            16.07%
     Source: EDW.

During our observations we noted idle employees (see Figures 6 and 7).

                      Figure 6: Four Idle Employees at the Inbound Dock




              Source: OIG photograph, February 15, 2012, 11:01 p.m.



                                                       9
Efficiency Review of the Los Angeles                                      NO-AR-12-007
 Network Distribution Center


                                   Figure 7: Three Idle Employees




              Source: OIG photograph, February 11, 2012, 5:21 p.m.

LDC 18 — Miscellaneous Operations

Miscellaneous mail processing operations are recorded in LDC 18 and include:

   Stand-by time.
   Empty equipment processing.
   Office work and several other activities.

The Los Angeles NDC used 5.47 percent of mail processing workhours in LDC 18 during
FY 2011, while the average of the above-median NDCs used 4.40 percent. Reducing
workhours in miscellaneous operations by 13,884 would enable the Los Angeles NDC to
achieve the average productivity of the above-median average NDCs (see Table 8). In
addition, Table 9 provides information on specific miscellaneous operations where
workhours can be reduced.

      Table 8: LDC 18 — Miscellaneous Operations Potential Workhour Savings
                                         Above Median NDCs Los Angeles NDC
    LDC 18 Workhours                          567,108             70,659
    Total Workhours                          12,897,637          1,291,213
    LDC 18 Percentage to Total Workhours       4.40%               5.47%
     FY 2011 Los Angeles NDC LDC 18
                                                         70,659
    Workhours
    Los Angeles NDC Target Workhours*                    56,775
    Potential Workhour Savings                          (13,884)
     Source: EDW.




                                                       10
Efficiency Review of the Los Angeles                                                              NO-AR-12-007
 Network Distribution Center



                   Table 9: Productivities for Miscellaneous Operations
              Operation         Operation              Above     Los Angeles
               Number          Description          Median NDCs      NDC
                        Office Work and Records –
                 554                                    0.36%       .062%
                              Mail Processing
                         Miscellaneous Activities –
                 560                                    0.71%       1.42%
                              Mail Processing
              Source: EDW.

Employee Complement

While the Los Angeles NDC has reduced staffing levels over the last few years, increasing
productivity to the median NDC will require additional reductions. There are 711 mail
processing employees at the Los Angeles NDC, 619 of whom are career employees and
92 of whom are non-career employees (see Table 10). To reduce the recommended
number of workhours, management would have to reduce the number of employees by
about 115. We found that 31 percent of career employees (109) at the Los Angeles NDC
are eligible to retire. With a reduction of the 92 non-career employees and the national
attrition rate of 5 percent (or 31 career employees), the Los Angeles NDC could achieve
the recommended workhour savings during the next fiscal year (see Table 11).

                                    Table 10: Complement Summary

                                         WebCOINS March 8, 2012
                Clerk – Career                                                           192
                Clerk – Postal Support Employee                                           38
                Clerk – Non-Traditional Full-Time                                          0
                Mail Handler – Career                                                    401
                Mail Handler – Part-Time Flexible                                         26
                Mail Handler – Casual                                                     54
                Total                                                                    711
                Total Career Employees                                                   619
                  Source: Complement Information System (WebCOINS).

                  Table 11: Potential Savings Through Attrition
                                                   Annual       Projected
                                   Employees
                                                  Workhours* Workhour Savings
 FY 2013 Non-Career Reduction           92         160,264       160,264
 FY 2013 Anticipated Retirements                        31                54,002                 214,266
  Source: EDW. *We calculated annual workhours by multiplying the annual anticipated retirements by 1,742 annual
  workhours.




                                                         11
Efficiency Review of the Los Angeles                                                                NO-AR-12-007
 Network Distribution Center



Maintenance

Opportunities exist at the Los Angeles NDC to improve efficiency through improved
maintenance of operating systems. During observations, we noted parcels on the parcel
sorting machine were not always properly centered on the sorting tray. This can cause
parcels to either drop in the wrong container or be rejected; thereby, requiring additional
handling (see Figure 8). A review of preventative maintenance at the Los Angeles NDC
revealed that, during FY 2011, they completed just 82 percent of preventative
maintenance10 routes while the national average completion rate was over 95 percent (see
Figure 9).

                Figure 8: A Package Sitting on Two Trays on the Parcel Sorter




              Source: OIG photograph, February 13, 2012, 10:56 p.m. The parcel could drop in the wrong container
              or end up in the reject bin.




10
  The scheduled systematic inspection and servicing of equipment to maintain its optimum condition. It is also an
essential factor contributing to the effective and efficient operation of the automated and mechanized mail processing
system used at postal facilities. This maintenance helps keep machine error rates low and throughput high and reduces
unplanned downtime. The installation head must ensure that maintenance schedules are established and strictly followed.


                                                          12
Efficiency Review of the Los Angeles                                                               NO-AR-12-007
 Network Distribution Center


                                   Figure 9: Percentage of Preventative Routes Completed

       Percent Complete




                                              Network Distribution Center
                          Source: EDW.

We also observed mailpieces below belts, in safety nets, on top of ceiling grids, and in
other places. Failure to properly perform daily mail sweeps prevents the timely delivery of
mail (see Figure 10). During the audit, management took action to improve maintenance
through increased mail sweeps.

                                        Figure 10: Mailpieces as old as 2007 Found
                                    Below Belts, in Safety Nets, and on Overhead Grids.11




                              Source: OIG photograph, February 15, 2012, 6:29 a.m.

11
  Mail sweeps are scheduled to be conducted daily. Any mailpieces found are entered back into the mailstream for
processing and delivery.


                                                                       13
Efficiency Review of the Los Angeles                                                               NO-AR-12-007
 Network Distribution Center



Mail Damage

During observations at the Los Angeles NDC, we noted an excessive quantity of damaged
mail (see Figure 11). Management stated that improper comingling of oversized packages
by other facilities was the primary reason. We also noted a lack of proper equipment
maintenance as a contributing factor. Additionally, parcels were not always repaired
promptly; thereby, increasing the likelihood of contents separating from the container. The
Los Angeles NDC damaged, on average, about 1,669 letters, 1,920 flats, and 130 parcels
of the 175,000 mailpieces handled daily. Damaging customers’ mail places Postal Service
revenue at risk as customers may elect to use other vendors to ship their mail. Potential
loss of revenue associated with this mail is about $500,000 annually.12

                         Figure 11: Damaged Mail Collected in the Rewrap
                                 Section of the Los Angeles NDC




              Source: OIG photograph, February 12, 2012, 7:04 p.m. We counted 57 hampers, seven
              automated postal centers, and 14 wire containers with damaged mail.

Causes and Impacts on Operations

Management at the Los Angeles NDC addressed operational efficiency by reducing
workhours while volume increased. As a result, they reduced FY 2011 workhours by about
40,000 (or 3 percent) from FY 2009 levels, even while volume increased by

12
   Based on a 2-month mailpiece count conducted February through April, 2012, a daily average of 1,669 letters, 1,920
flats, and 130 parcels are damaged at the Los Angeles NDC. We based piece rates on Postal Service Finance Cost and
Revenue Analysis for FY 2010. Revenue for a letter is $0.191, $0.366 for a flat, and $2.299 per parcel. We based the
revenue at risk on the loss of customer mailings projected over a 2-year period.


                                                          14
Efficiency Review of the Los Angeles                                         NO-AR-12-007
 Network Distribution Center


13.6 percent. However, Postal Service managers had not fully evaluated operational
efficiency by benchmarking operations against other NDCs, analyzed workhour trends, or
always properly supervised employees.

Additionally, observations revealed that management at the Los Angeles NDC did not fully
maximize the use of available automation options, such as installing a High-Speed
Universal Sorter. We also found that employees did not always complete preventive
maintenance of the equipment and facility cleaning, prohibiting the efficient processing and
flow of mail. Consequently, the Los Angeles NDC was using more workhours than
necessary to process its mail volume. Appendix B provides some suggestions to improve
Los Angeles NDC efficiency. Best practices are not recommendations and management
may or may not implement them at their discretion.

To increase productivity to the average productivity of all NDCs above the median
productivity, Los Angeles NDC management needs to reduce workhours by 200,019. This
would produce a cost avoidance of about $6.5 million annually. See Appendix C for details.

Recommendations

We recommend the vice president, Pacific Area Operations, instruct Los Angeles NDC
management to:

1. Reduce workhours by 200,019 by fiscal year 2017 to produce an annual cost avoidance
   of about $6.5 million, or increase volume by 39 million pieces, or combine workhour
   reductions and mail volume increases that will achieve the above-average median
   productivity level of 117 pieces per hour.

2. Periodically evaluate operating efficiency and staffing at the Los Angeles Network
   Distribution Center to determine whether further workhour adjustments are necessary
   based on workload.

3. Improve supervision of employees to ensure all employees are fully engaged.

4. Improve maintenance of mail processing equipment.

5. Maximize the utilization of automated equipment by installing a High-Speed Universal
   Sorter.

6. Ensure there is separation of non-machineable and machineable parcels throughout the
   processing network.




                                             15
Efficiency Review of the Los Angeles                                              NO-AR-12-007
 Network Distribution Center


Management’s Comments

Management agreed with the recommendations in the report. Although management
disagreed with the cost savings, they agreed with the workhour savings. Specifically,
management stated that:

    The Pacific Area agrees there are opportunities to increase efficiency and reduce
     200,019 workhours by FY 2017.

    The Pacific Area will monitor efficiency and conduct business reviews of the
     Los Angeles NDC.

    Supervisors will receive additional training in accountability, labor relations, union
     contracts, communications, and employee oversight.

    The Los Angeles NDC has implemented a new, more robust maintenance program.

    The High-Speed Universal Sorter has been approved and is scheduled for installation
     in October 2012.

    The Pacific Area will reissue procedures on parcel separations. Incoming containers
     will be monitored for compliance.

See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report. We based the cost savings
calculation on the reduction of 200,019 workhours over a 2-year period multiplied by the
escalated labor rate discounted over a 2-year period.

The OIG considers recommendation 1 significant and, therefore, requires OIG concurrence
before closure. Consequently, the OIG requests written confirmation when corrective
actions are completed. These recommendations should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                                16
Efficiency Review of the Los Angeles                                                            NO-AR-12-007
 Network Distribution Center


                                Appendix A: Additional Information

Background

NDCs are highly mechanized and/or automated mail processing plants that are part of
the National Distribution System. These facilities distribute Parcel Post, Media Mail,
Standard Mail, and Periodicals in bulk form. Each NDC serves as the distribution hub for
all ground shipments either originating or destinating at one of the hundreds of Post
Office locations within its service area and each facility is linked via ground transportation
to key service area facilities, as well as other NDC plants through a tiered system.

NDCs are categorized as Tier 1, Tier 2, or Tier 3, depending on what operations they
perform. Currently, there are 21 NDCs nationwide. All 21 NDCs are Tier 1. Tier 2 and 3
sites act as transfer and consolidation points to other NDCs (see Table 12 and Figure 12).
The Los Angeles NDC is a Tier 1 and Tier 2 facility in the Pacific Area. The Los Angeles
NDC processes inbound and outbound mail for processing and distribution centers in the
Los Angeles area, as well as mail to and from the San Francisco NDC. In FY 2011, the Los
Angeles NDC processed 63.6 million pieces of mail, an increase of 14 percent from the
FY 2010 volume of 55.7 million pieces. In FY 2011, the on-rolls complement was
726 employees, compared to 736 employees in FY 2010.

                                  Table 12: NDC Tier Designations
                 Tier 1                        Tier 2                      Tier 3
                 Springfield                   New Jersey                  Pittsburgh
                 Philadelphia                  New Jersey                  Pittsburgh
                 New Jersey                    New Jersey                  Pittsburgh
                 Pittsburgh                    Pittsburgh                  Pittsburgh
                 Detroit                       Pittsburgh                  Pittsburgh
                 Chicago* (East)               Pittsburgh                  Pittsburgh
                 Cincinnati* (East)            Pittsburgh                  Pittsburgh
                 Dallas                        Dallas                      Memphis
                 Jacksonville                  Jacksonville                Memphis
                 Washington, D.C.              Greensboro                  Memphis
                 Greensboro                    Greensboro                  Memphis
                 Atlanta                       Memphis                     Memphis
                 Memphis                       Memphis                     Memphis
                 St. Louis* (East)             Memphis                     Memphis
                 Kansas City                   Des Moines                  Des Moines
                 Minneapolis/St. Paul          Des Moines                  Des Moines
                 Des Moines                    Des Moines                  Des Moines
                 Cincinnati* (West)            Des Moines                  Des Moines
                 St. Louis* (West)             Des Moines                  Des Moines
                 Chicago* (West)               Des Moines                  Des Moines
                 Denver                        Denver                      Denver
                 Los Angeles                   Los Angeles                 Denver
                 San Francisco* (South)        Los Angeles                 Denver
                 Seattle                       Seattle                     Denver
                 San Francisco* (North)        Seattle                     Denver
                * Served by two Tier 2 NDCs, depending on where the mail is coming from or going.




                                                       17
Efficiency Review of the Los Angeles                                                          NO-AR-12-007
 Network Distribution Center


                             Figure 12: Mail Flow in the NDC Network




        Source: USPS Network Operations. An AADC is an Automated Area Distribution Center and an ADC is
        an Area Distribution Center.

Title 39 U.S.C. §403 (a) states “The Postal Service shall plan, develop, promote, and
provide adequate and efficient postal services . . . .” The U.S. Postal Service
Transformation Plan also recommends that the Postal Service improve productivity. The
Postal and Accountability Enhancement Act, P.L. 109-435, Title II, dated
December 20, 2006, highlights “. . . the need for the Postal Service to increase its efficiency
and reduce its costs, including infrastructure costs, to help maintain high quality, affordable
postal services . . .”

Objective, Scope, and Methodology

Our objective was to assess the efficiency of operations performed by the Los Angeles
NDC. To assess efficiency, we observed mail processing operations, analyzed mail volume
and workhours, evaluated machine utilization, interviewed Postal Service officials, and
benchmarked achievement to target productivities with similar-sized plants.

We relied on Postal Service operational systems, including the Management Operating
Data System, Web Flash Reports, the Enterprise Data Warehouse, and the Web
End-of-Run System to analyze mail volume and workhours. We checked the accuracy of
data by confirming our analysis and results with Postal Service managers and found no
material differences.

We conducted this performance audit from January through August 2012 in accordance
with generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a


                                                      18
Efficiency Review of the Los Angeles                                                   NO-AR-12-007
 Network Distribution Center


reasonable basis for our findings and conclusions based on our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. We discussed our observations and conclusions with
management on June 20, 2012, and included their comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

                                        Final       Monetary
                      Report           Report      Impact (In
Report Title          Number            Date        millions               Report Results
Efficiency          NO-AR-12-005       6/5/2012    $22,747,745    We found the Cleveland P&DC did
Review of the                                                     not attain the efficiency achieved by
Cleveland OH                                                      other large P&DCs or take full
Processing                                                        advantage of existing automation.
and                                                               Increasing operational efficiency at
Distribution                                                      the Cleveland P&DC by reducing
Center                                                            352,388 mail processing workhours
                                                                  could produce a cost avoidance of
                                                                  $23 million in labor savings over a
                                                                  2-year period. Management agreed
                                                                  with the recommendations.
Assessment of       NO-MA-12-001       4/27/2012   $664,997,872   We found the Postal Service had not
Overall Plant                                                     yet fully adjusted workhours in
Efficiency 2012                                                   response to declining mail volume
                                                                  because of poor economic
                                                                  conditions, or achieved all possible
                                                                  efficiencies in mail processing
                                                                  operations. The Postal Service could
                                                                  improve operational efficiency by
                                                                  reducing more than 14.2 million
                                                                  workhours by the end of FY 2014.
                                                                  Management agreed with the
                                                                  recommendations.




                                                   19
Efficiency Review of the Los Angeles                                                   NO-AR-12-007
 Network Distribution Center



                                         Final       Monetary
                      Report            Report      Impact (In
Report Title          Number             Date        millions               Report Results
Assessment of       NO-MA-11-004       5/20/2011    $647,586,823   We found the Postal Service had not
Overall Plant                                                      yet fully adjusted workhours in
Efficiency 2011                                                    response to declining mail volume
                                                                   because of poor economic conditions
                                                                   or achieved all possible efficiencies
                                                                   in mail processing operations.
                                                                   Management agreed they could
                                                                   improve operational efficiency by
                                                                   reducing more than 14 million
                                                                   workhours by the end of FY 2013.
                                                                   This would allow the Postal Service
                                                                   to achieve at least median
                                                                   productivity levels in the network and
                                                                   avoid costs of more than
                                                                   $647.5 million based on workhour
                                                                   savings for 1 year.
Houston, TX        NO-AR-11-004        12/14/2010   $189,744,682   We found a business case exists to
Processing                                                         consolidate the Houston P&DC’s
and                                                                mail processing operations into the
Distribution                                                       North Houston P&DC, provided the
Center Mail                                                        facility is expanded. Management
Consolidation                                                      agreed with the recommendations
                                                                   and will pursue expansion of the
                                                                   North Houston P&DC and
                                                                   consolidate the Houston P&DC’s
                                                                   mail processing operations.
                                                                   The expansion and consolidation is
                                                                   expected to be completed by the end
                                                                   of FY 2013, pending an economic
                                                                   analysis study and approval of
                                                                   capital funding by the Capital
                                                                   Investment Committee.
Assessment of       NO-MA-10-001       6/11/2010    $743,961,610   We found the Postal Service had not
Overall Plant                                                      yet fully adjusted workhours in
Efficiency 2010                                                    response to declining mail volume as
                                                                   a result of poor economic conditions
                                                                   or achieved all possible efficiencies
                                                                   in mail processing operations.
                                                                   Management agreed with the
                                                                   findings, recommendations, and
                                                                   monetary impact.
Dallas              NO-AR-10-003       2/24/2010    $114,041,172   We concluded that a business case
Processing                                                         exists to support consolidating the
and                                                                Dallas P&DC’s outgoing mail
Distribution                                                       operation into the North Texas
Center                                                             P&DC. Management agreed with the
Outgoing Mail                                                      recommendations and is taking steps
Consolidation                                                      to consolidate Dallas P&DC outgoing
                                                                   mail operations into the North Texas
                                                                   P&DC.



                                                    20
Efficiency Review of the Los Angeles                                                  NO-AR-12-007
 Network Distribution Center



                                        Final      Monetary
                      Report           Report     Impact (In
Report Title          Number            Date       millions               Report Results
Assessment of       NO-MA-09-002       5/8/2009   $969,495,708   We found management has not yet
Overall Plant                                                    fully adjusted workhours in response
Efficiency                                                       to changes in workload or achieved
                                                                 all possible efficiencies in mail
                                                                 processing operations provided by
                                                                 opportunities, such as the
                                                                 introduction of additional automation.
                                                                 Management agreed with the
                                                                 recommendations and monetary
                                                                 impact.




                                                  21
Efficiency Review of the Los Angeles                                                             NO-AR-12-007
 Network Distribution Center



              Appendix B: Los Angeles Network Distribution Center Suggestions for
                                 Improving Efficiency13

    Perform daily mail sweeps.
    Adjust employee schedules to match mail flow and workload.
    Monitor jam rates on equipment.
    Assign maintenance staff to machines frequently needing repairs.
    Improve scheduling of preventative maintenance.
    Clean and rope off finalized operations.
    Remove empty equipment from under sorting equipment.
    Ensure color-code tags are complete.
    Review employee clock rings for accuracy.
    Assign employees secondary duties during down time.
    Maximize use of automation.
    Involve the Business Service Network in improving mail quality.
    Approve overtime in small increments rather than in whole hours.
    Monitor times and locations of employee breaks.
    Have supervisors move with employees when assigning them to other operations.
    Have supervisors meet employees at the time clock when they clock in.
    Ensure employees remain busy until the end of their tour.
    Coordinate tow operator trips to move mail on all trips.
    Align dock assignments to minimize movement of mail through the plant.




13
  These items present options to management as possible sources of workhour reductions. These options are not
recommendations and management may or may not implement them at their discretion.


                                                         22
Efficiency Review of the Los Angeles                                                                    NO-AR-12-007
 Network Distribution Center



                               Appendix C: Monetary and Other Impacts

                                                 Monetary Impacts

             Recommendation 1                      Impact Category                            Amount
                Cost Savings                    Funds Put to Better Use14                   $13,036,879

Summary of Calculations

    We based the cost savings calculation on the reduction of 200,019 workhours over a
     2-year period multiplied by the escalated labor rate discounted over a 2-year period.
     Annual cost savings would be $6,518,440.

    We calculated the net present value using the discount rate of 2.6 percent over a
     2-year period.

    We based labor rates on the Los Angeles NDC Labor Utilization Reporting System for
     total function one.

    The yearly escalation factor is 1.8 percent, based on the Postal Service’s Decision
     Analysis Factors effective November 2011.

                                                    Other Impacts

             Recommendation 1                        Impact Category                         Amount
               Damaged Mail                          Revenue at Risk15                       $964,678

Summary of Calculations

    We based the revenue at risk calculation on the loss of customers mailing a daily
     average of 1,669 letters, 1,920 flats and 130 parcels, projected over a 2-year period.

    We based piece rates on Postal Service Finance Cost and Revenue Analysis for
     FY 2010. Revenue for a letter is $0.191, $0.366 for a flat, and $2.299 per parcel.

    We conducted the piece counts from February through April 2012.




14
   Funds that could be used more efficiently by implementing recommended actions.
15
  Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
currently provided by the Postal Service).


                                                            23
Efficiency Review of the Los Angeles                             NO-AR-12-007
 Network Distribution Center


                             Appendix D: Management’s Comments




                                            24
Efficiency Review of the Los Angeles        NO-AR-12-007
 Network Distribution Center




                                       25
Efficiency Review of the Los Angeles        NO-AR-12-007
 Network Distribution Center




                                       26
Efficiency Review of the Los Angeles        NO-AR-12-007
 Network Distribution Center




                                       27
